TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Evaluation of the Planning, Computation, and
                  Issuance of the Recovery Rebate Credit



                                       September 9, 2009

                              Reference Number: 2009-40-129




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 9, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Evaluation of the Planning, Computation, and
                                 Issuance of the Recovery Rebate Credit (Audit # 200840030.04)

 This report presents the results of our review to evaluate the effectiveness of the Internal
 Revenue Service’s (IRS) efforts to plan and implement the Tax Year 2008 Recovery Rebate
 Credit. This was our fourth and final review in a series of reviews that evaluated the IRS
 implementation of the Economic Stimulus Act of 20081 from the initial advanced economic
 stimulus payments through issuance of the recovery rebate credits.2

 Impact on the Taxpayer
 The recovery rebate credit is provided to those eligible individuals who may not have received
 an economic stimulus payment or who are entitled to an additional credit. Overall, the IRS
 successfully planned for the implementation of the recovery rebate credit. The IRS issued more
 than $96 billion in advanced economic stimulus payments to more than 119 million individuals
 in Calendar Year 2008 and approximately $8.5 billion in recovery rebate credits to almost
 21 million taxpayers as of April 17, 2009. The IRS was able to achieve the intent of Congress by
 providing billions of dollars to millions of Americans.




 1
     Pub. L. 110-185, 122 Stat. 613.
 2
     See Appendix V for a listing of the reviews we conducted.
                                   Evaluation of the Planning, Computation,
                                  and Issuance of the Recovery Rebate Credit




Synopsis
Overall, the IRS successfully planned for the                     Our analysis of 102 million tax returns
implementation of the recovery rebate credit. A                      as of April 17, 2009, showed that
number of efforts were initiated to educate and                      the IRS correctly calculated the
assist individuals on the recovery rebate credit.                 recovery rebate credit on 99.6 percent
                                                                       of the tax returns processed.
However, taxpayer confusion in calculating the
recovery rebate credit and programming errors
presented significant challenges. Despite education and assistance efforts by the IRS, taxpayer
confusion in computing the recovery rebate credit resulted in a significant number of errors. Of
the 114.3 million tax returns processed as of April 17, 2009, 16.7 million (14.6 percent) included
at least 1 error that needed to be addressed by the IRS Error Resolution function (8.4 million had
a recovery rebate credit error). This exceeded the total number of returns that the IRS estimated
would go to its Error Resolution function by 9.8 million tax returns (142 percent).
The accuracy rate of the IRS’ computation of the recovery rebate credit was very high. Our
analysis of more than 102 million tax returns as of April 17, 2009,3 showed that the IRS correctly
calculated the recovery rebate credit on 99.6 percent (approximately 101.7 million) of the tax
returns processed. We identified 399,099 tax returns (0.4 percent) for which our calculation of
the recovery rebate credit and the IRS’ calculation did not agree. Our analysis indicated that
258,550 taxpayers did not receive $84.6 million to which they were entitled and
140,549 taxpayers received $60.6 million more in credits than they were entitled to receive.
Differences resulted from errors in the IRS’ computer programming as well as procedural errors
in resolving IRS and taxpayer computation errors.
In addition to the above computational differences, we identified a programming error that put
$1.6 billion at risk. In December 2008, we notified
the IRS of a programming error that could have
allowed almost 6.4 million taxpayers to receive           The IRS took immediate action to
almost $1.6 billion in erroneous recovery rebate           correct a programming error we
credits to which they were not entitled. The           brought   to its attention. Correction of
Economic Stimulus Act of 2008 specifically                   the error ensured 6.4 million
                                                       individuals did not receive $1.6 billion
prohibits a taxpayer who can be claimed as a            in erroneous recovery rebate credits.
dependent on someone else’s return from receiving
the recovery rebate credit. However, initial




3
 The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
                                                                                                                    2
                                   Evaluation of the Planning, Computation,
                                  and Issuance of the Recovery Rebate Credit



programming for the recovery rebate credit did not include disallowing the credit when a
taxpayer indicated he or she can be claimed as a dependent on someone else’s return. The IRS
took immediate action to correct this programming error.
Finally, legislation did not provide the IRS with math error authority4 to prevent individuals
without valid Social Security Numbers from receiving the recovery rebate credit. Although the
legislation prohibited individuals without a valid Social Security Number from receiving the
rebate credit, the IRS was not provided with math error authority that would have enabled it to
effectively prevent the issuance of rebate credits to these individuals at the time a tax return was
processed. As a result, the IRS erroneously provided more than $27 million in recovery rebate
credits to more than 44,000 taxpayers who did not have a valid Social Security Number.
We issued a memorandum to the IRS in September 2008 raising concerns about its lack of math
error authority. We recommended the IRS work with the Assistant Secretary of the Treasury for
Tax Policy to obtain math error authority for recovery rebate claims on tax returns without a
valid Social Security Number. IRS management responded that they had raised concerns to the
Assistant Secretary about the lack of math error authority for this issue. However, no legislative
proposal was put forth to provide this authority.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, issue recovery
payments to individuals who did not receive the recovery rebate credit to which they were
entitled as a result of programming and Error Resolution function errors.

Response
IRS management agreed with the intent of the recommendations in our report. The IRS is
currently reviewing the data provided by the Treasury Inspector General for Tax Administration
and will provide appropriate taxpayer relief, if warranted, based on the results of its review.
Management’s complete response to the draft report is included in Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




4
 Math error authority allows the IRS to systemically disallow certain taxpayer claims at the time a tax return is
processed.
                                                                                                                    3
                                       Evaluation of the Planning, Computation,
                                      and Issuance of the Recovery Rebate Credit




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          A Number of Efforts Were Initiated to Educate and Assist
          Individuals on the Recovery Rebate Credit ........................................... Page 3
          The Accuracy of the Internal Revenue Service’s Computation
          of the Recovery Rebate Credit Was Very High............................................Page 6
                    Recommendations 1 and 2: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Treasury Inspector General for Tax Administration
          Coverage of the Economic Stimulus Act of 2008 ........................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
             Evaluation of the Planning, Computation,
            and Issuance of the Recovery Rebate Credit




                   Abbreviations

e-file(d)   Electronically file(d)
IRS         Internal Revenue Service
SSN         Social Security Number
TY          Tax Year
                                       Evaluation of the Planning, Computation,
                                      and Issuance of the Recovery Rebate Credit




                                             Background

The Economic Stimulus Act of 2008,1 signed on February 13, 2008, was enacted to energize the
national economy. The Act provided for a credit against Tax Year (TY) 2008 taxes paid by
individuals. The majority of individuals received the
credit in the form of an economic stimulus payment in      As of April 17, 2009, the IRS had
advance of filing their TY 2008 tax return. The Internal       allowed approximately
Revenue Service (IRS) estimated the credit based on         $8.5 billion in recovery rebate
information on the TY 2007 tax return and began issuing      credits to almost 21 million
economic stimulus payments on April 28, 2008.                          taxpayers.

In general, the law prohibits individuals who do not
meet basic requirements from receiving the recovery rebate credit. Taxpayers must have:
•      A valid Social Security Number (SSN).
•      An income tax liability or at least $3,000 in qualifying income. Income from wages, tips,
       and net self-employment earnings, as well as nontaxable combat pay and some Social
       Security, Veterans disability, and Railroad Retirement benefits qualifies as eligible income.
•      An Adjusted Gross Income below $87,000 for single taxpayers or $174,000 for married
       taxpayers.
Although the IRS issued the credit in advance, eligible individuals who may not have received an
economic stimulus payment or who are entitled to an additional credit could receive the credit
when they file their TY 2008 tax returns. The TY 2008 credit is known as the recovery rebate
credit. Individuals who met the following conditions were entitled to receive the recovery rebate
credit based on their TY 2008 tax returns, provided they have a valid SSN:
•      Taxpayers who were not eligible for an economic stimulus payment because their income
       was below the $3,000 qualifying income requirement or whose income was above the
       maximum income phase-out. If these taxpayers’ incomes had dropped and now meet the
       income requirements in TY 2008, they will be entitled to receive the recovery rebate credit.
•      Taxpayers may be entitled to an additional credit because of changes in their income or
       family status (i.e., birth of a child).
•      Taxpayers who could be claimed as a dependent on someone else’s tax return in TY 2007 but
       can no longer be claimed as a dependent in TY 2008.


1
    Pub. L. 110-185, 122 Stat. 613.
                                                                                               Page 1
                                    Evaluation of the Planning, Computation,
                                   and Issuance of the Recovery Rebate Credit



The primary difference between the economic stimulus payment and the recovery rebate credit
was the form in which it was issued. The economic stimulus payment was computed by the IRS
using information on the TY 2007 tax return and issued as a separate payment to the taxpayer.
However, the recovery rebate credit was included as a line item on the TY 2008 income tax
return and included in the taxpayer’s refund, if applicable.
This was our fourth and final review in a series of reviews that looked at the IRS implementation
of the Economic Stimulus Act of 2008 from the initial advanced economic stimulus payments
through issuance of the recovery rebate credits.2 The IRS issued more than $96 billion in
advanced economic stimulus payments to more than 119 million individuals in Calendar
Year 2008 and approximately $8.5 billion in recovery rebate credits to almost 21 million
taxpayers as of April 17, 2009. These payments were issued in conjunction with the processing
of millions of individual tax returns. The IRS was able to achieve the intent of Congress by
providing billions of dollars to millions of Americans as specified by law.
This review was performed at the IRS National Headquarters of the Wage and Investment
Division in Atlanta, Georgia, and the Modernization and Information Technology Services
organization in New Carrollton, Maryland, during the period October 2008 through June 2009.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




2
    See Appendix V for a listing of the reviews we conducted.
                                                                                          Page 2
                              Evaluation of the Planning, Computation,
                             and Issuance of the Recovery Rebate Credit




                                 Results of Review

A Number of Efforts Were Initiated to Educate and Assist Individuals
on the Recovery Rebate Credit
Overall, the IRS successfully planned for the implementation of the recovery rebate credit. The
IRS timely updated its tax forms, instructions, publications, and web site to include key
information explaining the recovery rebate credit. Guidance included information to assist
taxpayers in determining eligibility for the recovery rebate credit. In addition, the IRS developed
a number of tools, including online tools, to assist taxpayers in computing any recovery rebate
credit that they may be due.

Tax forms, instructions, publications, and the IRS web site were updated with
recovery rebate credit information in an effort to educate taxpayers
The IRS initiated a number of efforts to educate individuals on the requirements to receive the
recovery rebate credit. These efforts included:
•   Developing the Recovery Rebate Credit Worksheet to assist taxpayers in computing any
    recovery rebate credit they may be due. Using the worksheet, taxpayers can calculate the
    recovery rebate credit based on their TY 2008 tax returns. They would then compare the
    credit with what they received as an economic
    stimulus payment in Calendar Year 2008. For most         The IRS developed the Recovery
    people, the amount will be the same. However,              Rebate Credit Worksheet to
    taxpayers may claim the difference between the           assist taxpayers in determining
    economic stimulus payment and the recovery rebate          eligibility and computing the
    credit as a refundable credit against their TY 2008           recovery rebate credit.
    tax liability. If the taxpayers’ economic stimulus
    payment was greater than the computed recovery rebate credit, taxpayers are not required to
    pay the difference back to the IRS.
•   Developing resource guides for volunteers at free tax assistance sites and for IRS employees
    working in Taxpayer Assistance Centers and Toll-Free sites. The guides assist these
    individuals in determining if a taxpayer may be eligible for the recovery rebate credit.
•   Distributing information to the public via the media on recovery rebate credit eligibility
    criteria and how to claim the credit.




                                                                                             Page 3
                              Evaluation of the Planning, Computation,
                             and Issuance of the Recovery Rebate Credit



•   Updating the U.S. Individual Income Tax Return (Form 1040) and related instructions as
    well as other tax publications, such as Your Federal Income Tax (Publication 17), to include
    information to assist taxpayers in claiming the recovery rebate credit.
At the initiation of our audit, we reviewed IRS guidance and made suggestions to improve the
clarity of recovery rebate credit instructions in the Form 1040. The IRS agreed and made the
following changes:
•   Revised the Form 1040 instructions to explain that the economic stimulus payment and the
    recovery rebate credit were similar. The Form 1040 instructions did not explain the
    relationship between the economic stimulus payment and the recovery rebate credit. We
    were concerned taxpayers would mistakenly think the recovery rebate credit was a new tax
    credit instead of a continuation of the economic stimulus payment.
•   Added specific recovery rebate credit eligibility requirements to Form 1040 instructions
    preceding the rebate credit worksheet so that taxpayers could tell whether they may be
    eligible for the credit. The Form 1040 instructions did not provide enough information for
    taxpayers to determine if they qualified for the credit without having to complete the credit
    worksheet.

The IRS provided a number of options to assist taxpayers in computing the
recovery rebate credit
The IRS provided a number of options for taxpayers to obtain assistance in correctly computing
their recovery rebate credit for their TY 2008 returns. The efforts included:
•   Developing a recovery rebate credit webpage called the Recovery Rebate Credit Information
    Center. The site provides eligibility requirements and instructions on how to compute the
    credit. The information was also provided in Spanish.
•   Developing online tools, available on the IRS web site, to assist taxpayers in computing their
    recovery rebate credit. The How Much Was My Stimulus Payment enabled taxpayers to look
    up the amount of their economic stimulus payment and the Recovery Rebate Calculator
    enabled taxpayers to determine if they were eligible for the recovery rebate credit. We
    determined that these online tools correctly provided taxpayers with the amount of their
    economic stimulus payment and provided accurate responses regarding rebate credit
    eligibility.

Taxpayer confusion in calculating the recovery rebate credit and programming
errors presented significant challenges
Although the IRS initiated a number of efforts to educate and assist individuals, taxpayer
confusion in computing the recovery rebate credit resulted in a significant number of
taxpayer errors. Of the 114.3 million tax returns processed as of April 17, 2009, 16.7 million

                                                                                            Page 4
                                    Evaluation of the Planning, Computation,
                                   and Issuance of the Recovery Rebate Credit



(14.6 percent) included at least 1 error that needed to be addressed by the IRS Error Resolution
                                        function (8.4 million contained a recovery rebate credit
                                        error). This exceeded the total number of tax returns the
     More than 8.4 million of the
 114.3 million returns processed as     IRS estimated would go to its Error Resolution function by
   of April 17, 2009, contained a       9.8 million tax returns (142 percent). The IRS assumed
    recovery rebate credit error.       taxpayers would understand that they generally were not
                                        eligible for the recovery rebate credit if they had already
                                        received an economic stimulus payment. However,
taxpayers did not understand that the economic stimulus payment and the recovery rebate credit
were one in the same or they did not know how to correctly compute and claim the credit.
We recognized that the likelihood for taxpayer errors was high because the calculation of the
recovery rebate credit was based upon several factors, including the taxpayer’s filing status,
income, and tax liability. As such, we issued a memorandum to the Commissioner, Wage and
Investment Division, dated September 23, 2008, recommending that the IRS compute the credit
except for certain situations where the complexities would prevent the IRS from being able to do
so. The IRS subsequently informed us that the Economic Stimulus Act requires the IRS to
provide the taxpayers with the option to compute the credit themselves.
As we anticipated, there was a significant increase in taxpayer errors involving the computing of
the recovery rebate credit. The IRS estimated that less than 3 percent (an estimated 4.2 million
taxpayers) of taxpayers would be eligible to receive the recovery rebate credit. However, to
ensure the accuracy of the taxpayer’s computation, the IRS was required to compute the credit on
every tax return. Every return for which the IRS’ calculation of the credit and the taxpayer’s
calculation did not agree was sent to the Error Resolution function. These included those tax
returns for which the IRS computed the credit for the taxpayer. For example:
•     As of April 17, 2009, the IRS received 9.1 million electronically filed (e-file) tax returns in
      the Error Resolution System, almost 7 million more than was scheduled for the filing season.3
      Normally, 2 to 3 percent of e-file tax returns go to the Error Resolution System; this year the
      rate was 10.1 percent. The percent of paper tax returns sent to the Error Resolution System,
      31.7 percent, was also higher than this time last year.
•     As of April 17, 2009, approximately 7.1 million tax returns had at least 1 recovery rebate
      credit math error. This represents 89 percent of all tax returns with at least 1 math error.4
      The most common math errors were errors in computing the recovery rebate credit (more
      than 2.7 million) and the taxpayer not claiming the recovery rebate credit when eligible
      (more than 4 million).



3
    The period from January through mid-April when most individual income tax returns are filed.
4
    A return may contain more than one math error code.
                                                                                                   Page 5
                                   Evaluation of the Planning, Computation,
                                  and Issuance of the Recovery Rebate Credit



In addition, there were more than 1.3 million e-file rejects related to the recovery rebate credit as
of April 17, 2009.5 This represents 7.7 percent of total e-file rejects. The most common reason
e-filed tax returns with recovery rebate claims are being rejected is because the taxpayer already
received the maximum economic stimulus payment and tried to claim the credit.
Although planning for the recovery rebate credit was generally successful, we noted areas where
improvements were needed. Prior to Congress finalizing the Economic Stimulus Act of 2008,
the IRS formed an Executive Steering Committee to coordinate and oversee the IRS-wide
planning and implementation of the economic stimulus payment. The Steering Committee
coordinated efforts among the various functions responsible for implementing the Act to ensure
all aspects of the economic stimulus payment were implemented accurately and timely.
However, the IRS dissolved the Executive Steering Committee in August 2008 prior to full
implementation of the provisions in the Economic Stimulus Act. Planning for the recovery
rebate credit was combined into the IRS’ normal planning efforts for the annual filing season.
To ensure the success of the annual filing season, the IRS had to divide its focus among several
tax changes that needed to be implemented before the beginning of Calendar Year 2009. As a
result, the IRS’ focus on the implementation of the recovery rebate credit was diminished as the
Submission Processing function balanced the need to implement other tax law changes without
jeopardizing the timely processing of tax returns.

The Accuracy of the Internal Revenue Service’s Computation of the
Recovery Rebate Credit Was Very High
Our analysis of more than 102 million tax returns as of April 17, 2009,6 showed the IRS correctly
calculated the recovery rebate credit on 99.6 percent (approximately 101.7 million) of the tax
returns processed. We identified 399,099 tax returns (0.4 percent) for which our calculation of
the recovery rebate credit and the IRS’ calculation did not agree. These differences resulted in
258,550 taxpayers not receiving $84.6 million to which they were entitled and 140,549 taxpayers
receiving $60.6 million more credits than they were entitled to receive. Differences resulted
from errors in the IRS’ computer programming as well as procedural errors in resolving IRS and
taxpayer computation errors.
We identified and reported conditions to the IRS throughout our review and management took
immediate action when possible to correct these errors. As a result, the impact on taxpayers and
the IRS was significantly reduced.




5
 The number of rejects will be higher than the number of returns rejected since a return can reject more than once.
6
 The Returns Transaction File contains all edited, transcribed, and error-corrected data from the Form 1040 series
and related forms for the current processing year and 2 prior years.
                                                                                                             Page 6
                                  Evaluation of the Planning, Computation,
                                 and Issuance of the Recovery Rebate Credit



Errors resulting in taxpayers not receiving recovery rebate credits to which they were
entitled:
•   42,250 eligible taxpayers did not receive recovery rebate credits totaling $17.7 million
    because the IRS did not compute the credit for eligible taxpayers when the taxpayers did not
    claim the credit on their tax returns and at least 1 Individual Taxpayer Identification Number7
    was present on the returns. A taxpayer who files jointly with a spouse is eligible for the
    recovery rebate credit even if the child claimed on the tax return has an Individual Taxpayer
    Identification Number as long as both the taxpayer and the spouse have a valid SSN. This
    condition also included military taxpayers entitled to the credit regardless of the validity of
    their SSN under the Heroes Earnings Assistance and Relief Tax Act of 2008.8
•   216,300 eligible taxpayers did not receive recovery rebate credits totaling $66.9 million
    because of manual processing errors made by examiners in the Error Resolution function.
Errors resulting in taxpayers receiving recovery rebate credits to which they were not
entitled:
•   38,135 taxpayers incorrectly received recovery rebate credits totaling approximately
    $17.9 million because the IRS incorrectly increased the taxpayers’ credit claims for children
    with Individual Taxpayer Identification Numbers.
•   53,253 taxpayers incorrectly received recovery rebate credits totaling approximately
    $22.9 million because the IRS incorrectly allowed the child portion of the recovery rebate
    credit on returns when taxpayers did not have the minimum qualifying income or a tax
    liability.
•   49,161 taxpayers incorrectly received recovery rebate credits totaling $19.8 million because
    of manual processing errors made by examiners in the Error Resolution function.

A programming error could have allowed individuals claimed as a dependent on
someone else’s tax return to erroneously receive $1.6 billion
In December 2008, we notified the IRS of a programming error that could have allowed almost
6.4 million taxpayers to receive almost $1.6 billion in erroneous recovery rebate credits to which
they were not entitled. Specifically, the Economic Stimulus Act of 2008 prohibits a taxpayer
who can be claimed as a dependent on someone else’s tax return from receiving the recovery
rebate credit. However, initial programming for the recovery rebate credit did not disallow the
credit when a taxpayer indicated he or she can be claimed as a dependent on someone else’s tax
return. The IRS function responsible for developing the computer programming requirements


7
  An Individual Taxpayer Identification Number is issued by the IRS to individuals who are required to have a
taxpayer identification number for tax purposes, but do not have and are not eligible to obtain an SSN.
8
  Pub. L. No. 110-245, 122 Stat. 1624 (2008).
                                                                                                           Page 7
                                  Evaluation of the Planning, Computation,
                                 and Issuance of the Recovery Rebate Credit



was aware the IRS had the authority to systemically disallow these claims; however, the
requirement was not communicated to the computer programmers. The IRS immediately
corrected this error by revising its program.
In addition, although the IRS completed testing of the recovery rebate credit programming in
January 2009, some errors were not corrected until after the IRS began processing tax returns.
For example, we reviewed test documentation dated January 2009 that showed errors in the
computation of the recovery rebate credit for some Married Filing Separately individuals.
However, corrections to the program were not made until February 6, 2009; approximately
2 weeks after the IRS started processing tax returns. Consequently, 34,304 taxpayers did not
receive recovery rebate credits totaling approximately $10.7 million to which they were entitled.
The IRS should ensure computer programs are tested far enough in advance of the upcoming
filing season to ensure programming changes to correct errors identified in testing can be
corrected prior to the IRS processing tax returns.
Management Actions
We reported our concerns with errors in the initial programming for the recovery rebate credit
calculation for individuals who indicate they can be claimed as a dependent on someone else’s
tax return before the IRS began to process individual tax returns. The IRS took immediate action
to address our concerns. As a result, the IRS was able to correctly prevent the issuance of
recovery rebate credits totaling almost $1.6 billion to almost 6.4 million taxpayers who indicated
they could be claimed as someone else’s dependent.

Legislation did not provide the IRS with math error authority to prevent
individuals without valid SSNs from receiving the recovery rebate credit
The Economic Stimulus Act granted the IRS math error authority9 to handle some of the credit’s
eligibility requirements. However, it did not provide the IRS math error authority to address
rebate claims filed by taxpayers who did not have a valid SSN. This would include taxpayers
filing returns with an Individual Taxpayer Identification Number. Although the legislation
prohibited such individuals from receiving the recovery rebate credit, the IRS was not provided
with math error authority that would have enabled it to effectively prevent the issuance of
recovery rebate credits to these individuals at the time a tax return was processed. As a result,
the IRS erroneously issued more than $27 million in recovery rebate credits to more than
44,000 taxpayers who did not have a valid SSN.10



9
  Math error authority allows the IRS to systemically disallow certain taxpayer claims at the time a tax return is
processed.
10
   This includes more than 34,000 taxpayers with invalid primary or secondary SSNs who received recovery rebate
credits totaling approximately $23.5 million and 10,153 taxpayers who received approximately $3.76 million in
child rebate credits for children with an invalid SSN.
                                                                                                           Page 8
                              Evaluation of the Planning, Computation,
                             and Issuance of the Recovery Rebate Credit



We issued a memorandum to the IRS in September 2008 raising concerns about the impact of its
lack of math error authority on its ability to effectively prevent recovery rebate credits on tax
returns filed by individuals without a valid SSN. Because its Compliance function resources are
limited, the IRS had to establish a processing tolerance for deficiency processing of claims on tax
returns without a valid SSN. The IRS planned to allow any recovery rebate credit filed on a tax
return without a valid SSN if the credit claimed was less than a specified amount. All claims
more than that amount would be sent to the IRS Compliance function for deficiency processing.
We recommended that the IRS work with the Assistant Secretary of the Treasury for Tax Policy
to obtain math error authority for recovery rebate claims on tax returns without a valid SSN. IRS
management responded that they had raised concerns to the Assistant Secretary about the lack of
math error authority for this issue. However, no legislative proposal was put forth to provide this
authority.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Issue recovery payments to the 34,304 individuals who did not receive
the recovery rebate credit to which they were entitled as a result of programming errors in
computing the credit for Married Filing Separately taxpayers.
       Management’s Response: The IRS agreed with the intent of this recommendation.
       The IRS is currently reviewing the data provided by the Treasury Inspector General for
       Tax Administration and will provide appropriate taxpayer relief, if warranted, based on
       the results of its review.
Recommendation 2: Issue recovery payments to the 258,550 individuals we identified who
did not receive the full recovery rebate credit to which they were entitled as a result of computer
programming and Error Resolution function errors. The IRS should continue to identify
additional taxpayers not receiving the full credit to which they are entitled for those tax returns
processed after April 17, 2009.
       Management’s Response: The IRS agreed with the intent of this recommendation.
       The IRS is currently reviewing the data provided by the Treasury Inspector General for
       Tax Administration and will provide appropriate taxpayer relief, if warranted, based on
       the results of its review. In addition, the IRS will identify any additional taxpayers who
       filed their returns after April 17, 2009, and did not receive the full credit to which they
       were entitled and will ensure that they are also provided with the appropriate relief.




                                                                                             Page 9
                                   Evaluation of the Planning, Computation,
                                  and Issuance of the Recovery Rebate Credit



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the IRS’ efforts to plan
and implement the TY 2008 Recovery Rebate Credit. To accomplish our objective, we:
I.       Evaluated the effectiveness of the IRS’ planning process for the implementation of the
         recovery rebate credit.
         A. Obtained and reviewed the IRS’ overall and functional action plans for
            implementation.
         B. Evaluated the adequacy of the IRS’ plans for educating and assisting individuals in
            ensuring they receive the proper recovery rebate credit.
         C. Evaluated the IRS’ readiness plans for processing individual tax returns that are
            eligible for or claim the recovery rebate credit.
II.      Evaluated the accuracy of the IRS processing of individual tax returns eligible for the
         recovery rebate credit.
         A. Verified, through computer analysis of all approximately 102 million individual
            tax returns from the IRS Individual Returns Transaction File1 processed between
            January 1 and April 17, 2009, that only eligible taxpayers received the recovery
            rebate credits and that the credit amounts were accurate. This computer verification
            was completed using our calculations based upon the legal requirements of the
            Economic Stimulus Act of 2008.2 We assessed the reliability of the Returns
            Transaction File by verifying samples of the fields needed to determine the credit
            agreed with the information present on the IRS Integrated Data Retrieval System.3
         B. Calculated the amount of the recovery rebate credits that should have been allowed to
            the 34,304 Married Filing Separately taxpayers where an IRS programming error led
            to those taxpayers not receiving the correct amount.
         C. Determined that the recovery rebate credit amounts per the IRS in 399,131 tax returns
            did not agree with our calculations and further determined, to the extent possible, why


1
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
2
  Pub. L. 110-185, 122 Stat. 613.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 10
                  Evaluation of the Planning, Computation,
                 and Issuance of the Recovery Rebate Credit



those differences existed. We calculated the correct recovery rebate credit amounts
for the 399,099 tax returns where we could determine the reasons for the differences.




                                                                              Page 11
                           Evaluation of the Planning, Computation,
                          and Issuance of the Recovery Rebate Credit



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Deann Baiza, Audit Manager
John Hawkins, Lead Auditor
Sandra L. Hinton, Senior Auditor
Lawrence Smith, Senior Auditor
James Allen, Information Technology Specialist




                                                                                    Page 12
                           Evaluation of the Planning, Computation,
                          and Issuance of the Recovery Rebate Credit



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Technology Officer OS:CTO
Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 13
                                   Evaluation of the Planning, Computation,
                                  and Issuance of the Recovery Rebate Credit



                                                                                                  Appendix IV

                                     Outcome Measures

Throughout this review, we notified the IRS of conditions that impacted its ability to ensure only
eligible individuals were allowed the recovery rebate credit and for the correct amount. In
response, the IRS took corrective actions that limited the number and amount of credit errors.
This appendix presents detailed information on the measurable impact of those corrective
actions. These benefits will be incorporated into our Semiannual Report to Congress.
For all of the outcomes listed in this appendix, we conducted computer analyses of the IRS
Returns Transaction File1 for 102,073,044 individual tax returns processed between
January 1 and April 17, 2009. These analyses determined from the information recorded for all
returns if the taxpayers were eligible for the recovery rebate credit and the correct amount of the
credit. This information was compared with additional data from the Returns Transaction File
that showed the recovery rebate credits allowed by the IRS to the taxpayers.

Type and Value of Outcome Measure:
•   Revenue Protected – Actual; $1,576,636,877 in recovery rebate credits prevented from being
    issued to 6,387,101 taxpayers who could be claimed on someone else’s tax return (see
    page 6).

Methodology Used to Measure the Reported Benefit:
In December 2008, prior to the start of the filing season,2 we notified the IRS of a programming
error that would have allowed individuals who can be claimed as a dependent on someone else’s
tax return to incorrectly receive the recovery rebate credit. The IRS implemented a
programming change to correct this error before any returns were processed. We identified all
individual tax returns through computer analysis where the taxpayer indicated they could be
claimed as a dependent on someone else’s return and would have otherwise qualified for the
recovery rebate credit. This analysis identified a total of 6,387,101 taxpayers that would have
been incorrectly allowed the recovery rebate credit if the programming change had not been
made. We then calculated the recovery rebate credit amounts that would have been allowed for
each taxpayer based upon the filing status, income, and tax information reported on the tax
return.


1
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
2
  The period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 14
                                  Evaluation of the Planning, Computation,
                                 and Issuance of the Recovery Rebate Credit



Type and Value of Outcome Measure:
Funds Put to Better Use – Actual; $27,300,599 in recovery rebate credits erroneously allowed to
44,261 taxpayers with invalid SSNs3 (see page 6).

Methodology Used to Measure the Reported Benefit:
We issued a memorandum to the IRS in September 2008 raising concerns about the impact of the
lack of math error authority on the IRS’ ability to effectively prevent recovery rebate credits on
tax returns filed by individuals who did not have a valid SSN. Because its Compliance function
resources are limited, the IRS had to establish a processing tolerance for deficiency processing of
claims on tax returns without valid SSNs. Our analysis of the IRS Returns Transaction File
identified 46,628 individuals with an invalid SSN for which the IRS generated recovery rebate
credits $29,882,962. We determined that 2,367 of these tax returns with recovery rebate credits
totaling $2,582,363 were identified for deficiency processing. Therefore, we concluded that the
IRS incorrectly allowed recovery rebate credits totaling $27,300,599 to 44,261 taxpayers who
were not eligible for the credit because they had an invalid SSN.

Type and Value of Outcome Measure:
Taxpayer Rights and Entitlements – Actual; 258,550 taxpayers did not receive $84,565,597 in
recovery rebate credits to which they were entitled (see page 6).

Methodology Used to Measure the Reported Benefit:
Based on our analysis of the 102,073,044 individual tax returns processed between January 1 and
April 17, 2009, we identified 258,550 taxpayers who did not receive recovery rebate credits
totaling $84,565,597 to which they were entitled. This was the result of errors in the IRS’
computer programming to calculate the credit as well as in its manual processes to resolve
recovery rebate errors. Specifically:
•   42,250 eligible taxpayers did not receive recovery rebate credits totaling $17,667,277
    because the IRS did not compute the credit for eligible taxpayers when the taxpayer did not
    claim the credit on his or her tax return and at least 1 Individual Taxpayer Identification
    Number4 was present on the tax return. A taxpayer who files jointly with a spouse is eligible
    for the rebate credit even if the child claimed on the tax return has an Individual Taxpayer
    Identification Number as long as both the taxpayer and the spouse have a valid SSN. This




3
  Including Individual Taxpayer Identification Numbers.
4
  An Individual Taxpayer Identification Number is issued by the IRS to individuals who are required to have a
taxpayer identification number for tax purposes, but do not have and are not eligible to obtain an SSN.
                                                                                                          Page 15
                                    Evaluation of the Planning, Computation,
                                   and Issuance of the Recovery Rebate Credit



      condition also included military taxpayers entitled to the credit regardless of the validity of
      their SSN under the Heroes Earnings Assistance and Relief Tax Act of 2008.5
•     216,300 eligible taxpayers did not receive recovery rebate credits totaling $66,898,320
      because of manual processing errors made by examiners in the Error Resolution function.




5
    Pub. L. No. 110-245, 122 Stat. 1624 (2008).
                                                                                               Page 16
                                       Evaluation of the Planning, Computation,
                                      and Issuance of the Recovery Rebate Credit



                                                                                Appendix V

     Treasury Inspector General for Tax Administration
      Coverage of the Economic Stimulus Act of 2008

Our review of the recovery rebate credit is the fourth in a series of reviews conducted by the
Treasury Inspector General for Tax Administration that evaluated the IRS’ implementation of the
Economic Stimulus Act of 2008.1 These reviews evaluated the implementation of the Act from
the initial advanced economic stimulus payments through issuance of the recovery rebate credits.
A list of the audit reports issued to date is provided below.
• Evaluation of Planning Efforts for the Issuance of Economic Stimulus Payments (Reference
  Number 2008-40-149, dated July 31, 2008).
• Evaluation of the Computation of Economic Stimulus Payments (Reference
  Number 2008-40-174, dated September 4, 2008).
• Evaluation of Efforts to Ensure Eligible Individuals Received Their Economic Stimulus
  Payment (Reference Number 2009-40-069, dated April 24, 2009).




1
    Pub. L. 110-185, 122 Stat. 613.
                                                                                          Page 17
           Evaluation of the Planning, Computation,
          and Issuance of the Recovery Rebate Credit



                                                 Appendix VI

Management’s Response to the Draft Report




                                                       Page 18
 Evaluation of the Planning, Computation,
and Issuance of the Recovery Rebate Credit




                                             Page 19
 Evaluation of the Planning, Computation,
and Issuance of the Recovery Rebate Credit




                                             Page 20
 Evaluation of the Planning, Computation,
and Issuance of the Recovery Rebate Credit




                                             Page 21
